         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls over
Performance Fees in the Idaho
National Laboratory Contract




OAS-M-06-07                            August 2006
REPORT ON MANAGEMENT CONTROLS OVER PERFORMANCE
FEES IN THE IDAHO NATIONAL LABORATORY CONTRACT



TABLE OF
CONTENTS


  Performance Fees

  Details of Finding                             1

  Recommendations and Comments                   4


  Appendices

  1. Objective, Scope, and Methodology           6

  2. Other Matters                               7

  3. Related Audit Reports                       8

  4. Management Comments                         9
PERFORMANCE FEES IN THE IDAHO NATIONAL LABORATORY
CONTRACT

Performance Measures   The Department of Energy (Department) did not always effectively
and Fees               use performance measures and fees to appropriately reward
                       contractor performance. Specifically, the Department allocated
                       approximately $1.1 million for 3 of the 27 performance measures
                       and fees for Fiscal Year (FY) 2005, which were disproportionately
                       high for the work performed. Four of the 49 measures and fees
                       established for FY 2006 provided the contractor the opportunity to
                       earn $1 million under similar circumstances. Also, some of the
                       performance measures worth $460,000, were implemented well
                       after the performance period began.

                                              Disproportionate Fees

                       Performance measures should be designed to ensure that the fee
                       provided is commensurate with the work accomplished by the
                       contractor. However, in some cases, the performance measures
                       allowed Battelle to earn disproportionately high levels of fee. For
                       example:

                              •     Battelle's available fee was $600,000 to complete
                                    certain steps necessary to establish a new Center for
                                    Advanced Energy Studies. The requirements to
                                    complete the measure included selecting a director;
                                    providing a project plan/development proposal to the
                                    Department; identifying a funding mechanism for a
                                    planned new facility; and documenting a Governing
                                    Management Structure (similar to a program charter).
                                    However, we noted that the work necessary to earn
                                    this fee required only $220,000 of labor costs. Thus,
                                    the contractor's fee was almost three times the total
                                    cost or level of effort needed to accomplish the
                                    measure.

                              •     Battelle's available fee was $250,000 to decrease the
                                    total recordable case rate for on-the-job injuries by
                                    five percent. In order to achieve this level of
                                    performance, Battelle had to realize only two fewer
                                    "recordable" cases. Typical injuries at the Laboratory
                                    that result in recordable cases are from being struck
                                    by an object, overexertion, slips/trips, etc.

                              •     Battelle also had $250,000 in fee available for
                                    reducing the Day Away, Restricted, or Transferred
                                    (DART) rate by five percent. DART cases are
                                    recordable injury cases that result in work restrictions,


Page 1                                                                 Details of Finding
                      job transfers or time off due to injury. To achieve the
                      fee, the contractor had to reduce the number of DART
                      cases by one case.

         Similarly, for FY 2006, four measures had disproportionately high
         levels of fee for acquiring newly funded projects. In total, Battelle
         can earn a "sales commission" of almost $1 million for only
         acquiring a minimum of $400,000 in new funding. For example
         Battelle can earn a fee of:

                •     $499,000 for acquiring a newly funded project of at
                      least $100,000 worth of work in the Utility Sector
                      program to reduce grid vulnerability;

                •     $185,000 for acquiring a project of at least $100,000
                      in Material Protection, Control and Accountability
                      Training Program activities;

                •     $185,000 for bringing in at least $100,000 of work
                      from an international client for a process control
                      security assessment; and,

                •     $93,500 for brining in at least $100,000 of work for
                      compressed or liquefied natural gas technology.

                              Performance Plan Delays

         The Performance Evaluation Measurement Plans (Plan), which
         outline the performance measures for each period, were not
         established in a timely manner. The Department signed the
         FY 2005 Plan on March 31, 2005, – two months after the start of
         the contract period. Also, the FY 2006 Plan was not signed until
         February 22, 2006, almost five months after the performance
         period began. The delay in establishing performance measures and
         fees was not consistent with the Department's objective to use
         performance measures and fees to clearly define performance
         expectations for the contractor before the commencement of the
         performance period. For example:

                •     In FY 2005, the transition of Argonne National
                      Laboratory-West to the Idaho National Laboratory
                      included a performance measure to complete training
                      on business systems, transfer residual property, and
                      transfer residual funding balance worth approximately
                      $180,000, that Battelle completed on March 28, 2005,
                      or three days before the Plan was approved.


Page 2                                                   Details of Finding
                        •     In January 2006, Battelle completed work for a
                              $280,000 performance measure to deliver a power
                              system to the National Aeronautics and Space
                              Administration for the New Horizons spacecraft. The
                              Plan outlining the scope of work and fee was not
                              approved until February 2006.

Development of   These deficiencies occurred because the Office of Nuclear Energy
Performance      (Nuclear Energy) and the Idaho Operations Office (Idaho) did not
Measures         effectively communicate their respective expectations.
                 Furthermore, in establishing fees, management did not balance
                 achieving programmatic priorities against the level of difficulty
                 associated with performing the work.

                 The Plans were delayed due to poor communication of
                 expectations between Nuclear Energy and Idaho. For instance, we
                 noted that the measures were developed from the bottom-up rather
                 than top-down. Initially, the Plans were drafted by Battelle who
                 identified and proposed both long-term and annual performance
                 measures. Idaho reviewed and revised the measures, in
                 consultation with the contractor, until it was satisfied with the
                 presentation of the measures. Subsequently, the Plan was
                 transmitted to Headquarters for review and approval. However,
                 Headquarters was not satisfied with the Plan, thereby requiring
                 extensive revisions over the course of several months to be in-line
                 with its expectations. Had the expectations been clearly
                 established by Headquarters and communicated to Idaho early in
                 the process, the measures could have been established in a more
                 timely manner. In discussing these concerns with Department
                 officials, there was broad agreement that this area needs to be
                 improved. Accordingly, management stated that they are taking
                 steps to correct these problems to ensure timely measures in the
                 future.

                 In discussing our concerns with disproportionate measures with
                 Department officials, they acknowledged that there was
                 insufficient documentation and analysis to fully demonstrate the
                 rationale for these decisions. Specifically, for the disproportionate
                 fees, we noted that management focused primarily on the
                 Department's strategic priorities without appropriately balancing
                 these priorities against the ease with which the contractor could
                 earn the fee. This is in contrast to Departmental guidance, which
                 requires that the amount of available fee should be in relation to
                 the level of difficulty of the task or the risk associated with the
                 task.




Page 3                                                           Details of Finding
Achieving the      As a result of not always effectively using performance measures
Goals of           and fees to appropriately reward contractor performance, the
Performance Fees   Department allocated $2.5 million in performance fees to the
                   contractor during FYs 2005 and 2006 that were questionable. By
                   not following its established guidelines, the Department has less
                   assurance that its performance fees are improving performance in
                   the most practical and effective manner. Since the contract offers
                   an additional $168 million of potential fees during the next nine
                   years, it is imperative that the Department quickly address the
                   problems outlined in this report.


RECOMMENDATIONS    We recommend that the Assistant Secretary for Nuclear Energy:

                        1. Establish performance expectations early in the planning
                           process and convey the expectations to Idaho for
                           inclusion in the Performance Evaluation Measurement
                           Plan;

                        2. Ensure that the Performance Evaluation Measurement
                           Plan is established prior to the period of commencement;
                           and,

                        3. Establish fees in reasonable proportion to the amount of
                           work to be performed.


MANAGEMENT         The Assistant Secretary for Nuclear Energy generally concurred
REACTION AND       with the report. Management agreed with recommendations 1 and
AUDITOR            2 to ensure that the Performance Evaluation Measurement Plan is
COMMENTS           in place before the start of the fiscal year. Management accepted
                   recommendation 3, but noted that it may be impossible to
                   consistently allocate fee based primarily on the dollar value of the
                   work scope. Management made additional comments that we
                   considered in preparing the final report.

                   Management's comments were responsive to our
                   recommendations.

                   Regarding management's observations that it may not always be
                   possible to allocate fee based primarily on the dollar value of the
                   work, we observed that management's criteria for performance
                   measures require that the incentive be commensurate with the level
                   of difficulty of the work or the risk involved. We believe that the
                   dollar value of the work scope is one measure of the difficulty of
                   work and risk to the contractor. Furthermore, in some cases, the



Page 4                                         Recommendations and Comments
         incentive fee available to the contractor exceeded the benefit to the
         Department. As previously discussed, in FY 2006, the contractor
         can earn nearly $1 million for acquiring $400,000 in funding for
         new projects.

         Management's comments are included as Appendix 4.




Page 5                                                           Comments
Appendix 1

OBJECTIVE     The objective of the audit was to determine whether the
              Department effectively used performance measures and fees to
              appropriately reward contractor performance at the Idaho National
              Laboratory.


SCOPE         The audit was performed from June 2005 to May 2006 at the Idaho
              Operations Office and Battelle Energy Alliance, LLC in Idaho
              Falls, Idaho. The audit covered the Idaho National Laboratory
              contract fees for Fiscal Years 2005 and 2006.


METHODOLOGY   To accomplish the audit objective, we:

                 •    Obtained and reviewed the management and operating
                      contract for the Idaho National Laboratory;

                 •    Interviewed key personnel at the Idaho Operations Office
                      and Battelle Energy Alliance, LLC.;

                 •    Researched Federal and Departmental regulations;

                 •    Reviewed findings from prior audit reports regarding
                      performance fees and incentives; and,

                 •    Assessed internal controls and performance measures
                      established under the Government Performance and
                      Results Act of 1993.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Specifically, we tested controls with respect to the Department's
              effective use of performance measures and fees at the Idaho
              National Laboratory. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. Also, we considered the
              establishment of performance measures in accordance with the
              Government Performance and Results Act of 1993 as they related
              to the audit objective. Finally, we did not rely on automated data
              processing equipment to accomplish our audit objective.


              We held an exit conference with the Deputy Manager of the Idaho
              Operations Office on August 2, 2006.



Page 6                                    Objective, Scope, and Methodology
Appendix 2

                                     OTHER MATTERS


Results-Oriented Performance Measures

According to Departmental procurement policy, contractor fees should be attached to
performance-based results or outcomes, rather than for the processes performed by the
contractor. In addition to Departmental policy, the Battelle Energy Alliance, LLC (Battelle)
contract states that the Performance Evaluation Measurement Plan shall tie fee to outcomes.
Contrary to the Departmental policy and the Battelle contract, the majority of performance
measures and related fee were tied to process-oriented activities, such as planning documents,
rather than outcomes. In fact, 16 of 26 performance measures for FY 2005 were process-
oriented.

Department officials acknowledged the need to make future measures outcome-oriented. In FY
2005, the performance measures focused on consolidation of activities and planning for the
future. With the transition and consolidation to a new contract, strategic planning was necessary
to set the direction of the Idaho National Laboratory. It was anticipated that the plans would
provide the basis for more tangible end results and that future measures would be more definitive
and contain less planning documents.

However, the nuclear energy research program at the Idaho National Laboratory has been
ongoing for many years and continues to move forward. Accordingly, outcome-oriented
performance measures should be achievable regardless of the contractor. Although the
Department improved its development of measures, six of 49 performance measures were
process-oriented in the FY 2006 Performance Evaluation Measurement Plan.




Page 7                                                                           Other Matters
Appendix 3

                               RELATED AUDIT REPORTS


  •   Use of Performance Based Incentives by the Office of Civilian Radioactive Waste
      Management (DOE/IG-0702, September 2005). The Office of Civilian Radioactive
      Waste Management (OCRWM) did not administer the performance-based incentives to
      improve the contractor's performance. Specifically, OCRWM paid incentive fees even
      though additional time was needed by the contractor to complete quality work, work
      scope was decreased due to poor contractor performance, delivered products were not
      acceptable to OCRWM, and incentivized work was eliminated. Additionally, OCRWM
      paid a super stretch incentive fee for additional work scope even though the original work
      scope was not completed. OCRWM could not administer the contract to improve
      performance because clearly defined standards to evaluate performance had not been
      established.

  •   Use of Performance-Based Incentives at Selected Departmental Sites (DOE/IG-0510,
      July 2001). In February 1994, a contract reform team encouraged the use of
      performance-based incentives to link fee earned with performance results. The auditors
      found that the Department of Energy had not been utilizing performance-based incentives
      in a manner that would improve contractor performance. Problems were identified with
      12 of the 19 incentives reviewed, field offices were not evaluating past incentives to
      negotiate recurring incentives, and there was not a formal review and approval process in
      place.

  •   Performance Incentives at the Idaho National Engineering and Environmental
      Laboratory (WR-B-00-05, April 2000). Auditors found that the performance-based
      incentives at the Idaho National Engineering and Environmental Laboratory had not been
      successful at improving performance and reducing costs. In some cases, where
      performance improved, the contractor was compensated twice, or the fee was
      disproportionately high. The auditors found problems with the way that management
      structured and validated incentives, resulting in $11.3 million in questioned incentive fees
      paid to the contractor.




Page 8                                                                  Related Audit Reports
Appendix 4




Page 9       Management Comments
                                                                    IG Report No. OAS-M-06-07

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
